                                      Closeout for M98110040
 0n()~une 1998, we received an anonymous note. In it the author contended that the
 review process for proposals submitted to a particular NSF program' were
 "transparent and favorable" to certain PIS and were therefore "unfair." The author
 said that PIS helped program managers select reviewers and that the reviewers were
 biased. The complainant suggested that a broad evaluation of NSF's review process
 be undertaken. According to NSF's Grant Proposal Guide

          Proposers are invited to suggest names of persons they believe
          are especially well qualified to review the proposal or persons
          they would prefer not review the proposal. These suggestions
          may serve as one source in the reviewer selection process as the
          Program Officer' s dis~retion.~

The information provided by the complainant is insufficient to focus any inquiry on a
specific allegation about inappropriate reviewer bias. Absent specific information
from the anonymous pomplainant about bias or unfairness, we found no evidence that
program officers had acted in ways that were inconsistent with the guidance provided
in the Grant Proposal Guide.

This inquiry is closed and no further action will be taken.

Cc: Integrity, IG




' The author contended that the review process for the materials research centers were biased.
 Grant Proposal Guide (NSF 98-2). page 16.


                                              Page 1 of 1                             M98-40
